Audit
Report
        ACQUISITION OF THE NAVAL FIRES CONTROL SYSTEM



Report No. D-2002-036                          January 8, 2002




             Office of the Inspector General
                 Department of Defense
 Additional Copies

 To obtain additional copies of this audit report, visit the Inspector General, DoD,
 Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
 Distribution Unit of the Audit Followup and Technical Support Directorate at
 (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

 Suggestions for Future Audits

 To suggest ideas for or to request future audits, contact the Audit Followup and
 Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax
 (703) 604-8932. Ideas and requests can also be mailed to:

                   OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General, Department of Defense
                       400 Army Navy Drive (Room 801)
                           Arlington, VA 22202-4704

 Defense Hotline

 To report fraud, waste, or abuse, contact the Defense Hotline by calling
 (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
 by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
 The identity of each writer and caller is fully protected.




Acronyms

ADOCS                Automated Deep Operations Coordination System
AFATDS               Advanced Field Artillery Tactical Data System (Army)
AoA                  Analysis of Alternatives
C4I                  Command, Control, Communications, Computers, and
                        Intelligence
CRD                  Capstone Requirements Document
EVMS                 Earned Value Management Systems
JITC                 Joint Interoperability Test Command
LAWS                 Land Attack Warfare System
NFCS                 Naval Fires Control System
ORD                  Operational Requirements Document
PEO(S)               Program Executive Office for Surface Strike
SACC                 Supporting Arms Coordination Center
TEMP                 Test and Evaluation Master Plan
                        Office of the Inspector General, DoD
Report No. D-2002-036                                                   January 8, 2002
  (Project No. D2001AE-0069)

                 Acquisition of the Naval Fires Control System

                                  Executive Summary

Introduction. The Naval Fires Control System (NFCS), a Navy Acquisition Category III
program, is an automated mission-planning system for Naval surface-fire support that will
be interoperable with Army and Marine Corps fire support systems on future, digital
battlefields. The NFCS will coordinate and execute fire support weapon engagements
from Arleigh Burke class destroyers and Ticonderoga class cruisers, receive targeting data,
generate a coordinated land tactical picture, and prepare fire plans. The Navy plans to
procure and maintain the NFCS for an estimated cost of $111.6 million over a 15-year life
cycle and will hold the full-rate production decision in FY 2003.

Objectives. The primary audit objective was to evaluate the overall management of the
NFCS. Because the program was in the engineering and manufacturing development
phase, we determined whether management was cost-effectively readying the program for
the production phase of the acquisition process. We also evaluated the management
control program as it related to the audit objective.

Results. Overall, the NFCS program warrants attention in the areas of development and
acquisition, earned value management, operational requirements, and test and evaluation
planning before it enters the full-rate production phase of the acquisition process.

       •   The NFCS Program Office efforts to develop and acquire the NFCS Phase II
           duplicated the existing and planned functionality of the Army Advanced Field
           Artillery Tactical Data System (AFATDS). As a result, the Navy, including
           the Marine Corps, planned to obligate $71.2 million in research, development,
           test and evaluation funding from FY 2002 through FY 2007 for NFCS Phase II
           requirements that duplicate functions of AFATDS on amphibious ships.
           Implementing the recommendations would permit the Navy, including the
           Marine Corps, to put $71.2 million of remaining funds to better use
           (finding A).

       •   The earned value management system (EVMS) for the NFCS did not provide
           the program office with information needed to effectively manage the
           program’s cost and schedule data. Without a certified EVMS that accurately
           shows contractor cost and schedule performance data, the Navy has increased
           the risk of the program being adversely affected by undisclosed cost and
           schedule overruns (finding B).

       •   The NFCS did not have an updated and comprehensive operational
           requirements document (ORD) and test and evaluation master plan (TEMP) that
           included user objectives and minimum acceptable requirements for NFCS
           Phase I Plus and the functionality of NFCS Phase II. Without an updated and
           comprehensive ORD and TEMP, the Navy cannot plan for test resources
           required to test NFCS, thus impacting the NFCS schedule, cost, and
           performance, and cannot ensure that the NFCS meets the minimum required
           system capabilities or characteristics that are considered essential for successful
           mission accomplishment (finding C).
The management control program that we reviewed was effective in that no material
management control weakness was identified. See Appendix A for details on the
management control program.

Summary of Recommendations. We recommend that the Director, Naval Center for
Cost Analysis, conduct a life-cycle cost comparison between AFATDS and NFCS to
determine which system most cost-effectively meets ORD requirements, and that the
Deputy Chief of Naval Operations (Naval Warfare) determine whether NFCS Phase II
meets Naval doctrine to project Naval power ashore in support of the Marine Corps,
whether it duplicates existing AFATDS functionality, and whether it should continue to be
funded. Further, we recommend that the Program Manager, Naval Surface Fire Support,
update the acquisition strategy, the acquisition plan, and the TEMP; request that the
Defense Contract Management Agency conduct a certification review of the EVMS for the
NFCS; and conduct periodic reviews of the EVMS. We also recommend that the Deputy
Chief of Naval Operations (Resources, Warfare Requirements, and Assessments) update
the ORD; and that the Assistant Secretary of Defense (Command, Control,
Communications, and Intelligence) review the Command, Control, Communications,
Computers, and Intelligence (C4I) Support Plan for the NFCS to access interoperability
and information exchange requirements for all phases of the program; and that the
Director for Command, Control, Communications, and Computers (J-6) review and
certify, as appropriate, the ORD for interoperability.

Management Comments. We received comments from the Deputy Assistant Secretary
of the Navy, Ship Programs, Office of the Assistant Secretary of Navy (Research,
Development, and Acquisition) (the Deputy Assistant); the Chief, Command, Control,
Communications, and Computers Requirements and Assessment Division, Office of the
Director for Command, Control, Communications, and Computers (J-6) in the Joint Staff
(the Chief); and the Acting Director, Program Analysis and Integration, Office of the
Assistant Secretary of Defense (Command, Control, Communications, and Intelligence)
(the Acting Director). The Deputy Assistant concurred with the intent of the
recommendation to conduct a life-cycle cost comparison between AFATDS and NFCS;
however, his comments were unresponsive. The Deputy Assistant also concurred with the
intent of recommendations to determine whether NFCS Phase II meets Naval doctrine,
whether it duplicates existing AFATDS functionality, and whether it should continue to be
funded; however, the Deputy Assistant’s comments did not meet the intent of our
recommendations. Further, the Deputy Assistant concurred with the recommendations to
update the acquisition strategy, the acquisition plan, the TEMP, and the ORD and
nonconcurred with the recommendations to conduct a certification review and periodic
reviews of the EVMS for the NFCS. The Deputy Assistant provided comments and
recommended changes to selected statements in the report. The Chief concurred with the
recommendation to review and certify, as appropriate, the ORD for the NFCS. The
Acting Director concurred with the recommendation to review the C4I Support Plan for the
NFCS. A discussion of the management comments is in the Finding section of the report,
and the complete text is in the Management Comments section.

Audit Response. Because the Navy comments were unresponsive to the recommendation
concerning life-cycle costs, we are redirecting that recommendation to the Under Secretary
of Defense for Acquisition, Technology, and Logistics. Further, as a result of the Navy
comments, we revised the recommendations concerning Naval doctrine, AFATDS
functionality, program funding, and EVMS to clarify our intention. Therefore, we request
that the Under Secretary of Defense for Acquisition, Technology, and Logistics and the
Navy provide comments by February 8, 2002.




                                            ii
Table of Contents

Executive Summary                                                           i


Introduction
     Background                                                             1
     Objectives                                                             2

Findings
     A. Naval Fires Control System Development and Acquisition              3
     B. Earned Value Management System                                     14
     C. Updated Operational Requirements and Test and Evaluation
        Planning                                                           18

Appendixes
     A. Audit Process
          Scope and Methodology                                            26
          Management Control Program Review                                26
          Prior Coverage                                                   27
     B. Definitions of Technical Terms                                     28
     C. Navy Analysis of Alternatives Initiation, Analysis, and Approval
        Process                                                            32
     D. Audit Responses to Navy Comments Concerning the Report             34
     E. Report Distribution                                                38
Management Comments
     Assistant Secretary of Defense (Command, Control, Communications,
        and Intelligence)                                                  41
     Joint Staff                                                           42
     Department of the Navy                                                43
                Naval Fires Control System Functionality
                 Demonstrated on the Digital Battlefield




AFATDS        Advanced Field Artillery Tactical Data System (Army)
CVN           Carrier Vessel Nuclear
DDG           Guided Missile Destroyer
LHD           Amphibious Assault Ship (Multipurpose)
Source: Surface Warfare Division, Manpower/Training Requirements Branch, Office of the Deputy
Chief of Naval Operations (Naval Warfare)

Naval Fires Control System
Background
            The Naval Fires Control System (NFCS), a Navy Acquisition Category III
            program, is one of several modernization efforts under the Program Manager,
            Naval Surface Fire Support (PMS 529).1 The mission of the PMS 529 Program
            Office is to design, build, and field responsive, lethal, flexible, and affordable
            Naval surface-fire support combat systems to support Fleet operational
            requirements and Marine Corps concepts as described in “U.S. Marine Corps
            Operational Maneuver from the Sea.”2 The PMS 529 Program Office reports to
            the Program Executive Office for Surface Strike [PEO(S)]. On acquisition
            matters, PEO(S) reports directly to the Assistant Secretary of the Navy
            (Research, Development, and Acquisition). On in-service support matters,
            PEO(S) reports to the Chief of Naval Operations through the Commander,
            Naval Sea Systems Command. The Deputy Chief of Naval Operations
            (Resources, Warfare Requirements, and Assessments) represents the user and
            defines NFCS operational requirements. Appendix B provides definitions of
            technical terms used in this report.

            The NFCS is an automated mission-planning system for surface fire support that
            will be interoperable with Army and Marine Corps fire support systems on
            future, digital battlefields. The Navy was developing the NFCS to enhance
            supporting fire-mission planning, command and control, and coordination,
            which are mainly manual operations. The NFCS will coordinate and execute
            fire support weapon engagements from Arleigh Burke class destroyers and
            Ticonderoga class cruisers, receive targeting data, generate a coordinated land
            tactical picture, and prepare fire plans. The system is scheduled for installation
            aboard the USS Winston S. Churchill (DDG-81) and later aboard Arleigh Burke
            class Aegis guided-missile destroyers and will also be an element of the Cruiser
            Conversion Program for the 22 Ticonderoga class Aegis guided-missile cruisers
            fitted with the vertical launching system.

            The NFCS is to be interoperable with the Army Advanced Field Artillery
            Tactical Data System (AFATDS), an Army Acquisition Category IC program,
            that is a multi-service (Army and Marine Corps), joint, and combined forces
            system for fire-support command, control, and communications. AFATDS
            provides fully automated support for planning, coordinating and controlling
            mortars, field artillery cannons, rockets, guided missiles, close air support,
            attack helicopter, and Naval gunfire, for close support, counterfire, interdiction,
            suppression of enemy air defenses, and deep operations. AFATDS is used at all
            echelons from the platoon operations center to the corps fire support element
            and operates with all existing and planned U.S. fire support systems as well as
            allied field artillery command, control, and communications systems. Under an
            interim fielding decision, the Navy installed AFATDS software on the USS
            Bonhomme Richard (LHD-6), the USS Iwo Jima (LHD-7), and the USS
            Coronado (AGF-11), a command ship.



1
    Formerly PMS 429.
2
    See finding A, page 9, for a discussion of the document.

                                                      1
           The NFCS acquisition strategy, approved in October 1998, was for a two-phase
           development approach. Phase I encompasses the reuse and further development
           of an existing Government off-the-shelf computer program. 3 The Phase I end
           product would be a Government-owned, baseline NFCS computer program.
           Phase II incorporates additional Naval surface-fire support functional
           requirements into the baseline NFCS computer program. General Dynamics
           Information Systems4 is the prime contractor for Phase I; however, as of
           December 2001, the Navy had not awarded the Phase II contract.

           In November 2000, PEO(S) approved the initiation of engineering and
           manufacturing development for the NFCS Phase I Plus Program, which embeds
           Phase I software into Tactical Tomahawk Weapons Control System and Land
           Attack Missile Fire Control System equipment. The resulting system is known
           as TLN.5 Lockheed Martin Management and Data System is the prime
           contractor for the NFCS Phase I Plus Program. The Navy plans to procure and
           maintain the NFCS for an estimated cost of $111.6 million over a 15-year life
           cycle and will hold the full-rate production decision in FY 2003.

Objectives
           The primary audit objective was to evaluate the overall management of the
           NFCS. Because the program was in the engineering and manufacturing
           development phase, we determined whether management was cost-effectively
           readying the program for the production phase of the acquisition process. We
           also evaluated the management control program as it related to the audit
           objective. See Appendix A for a discussion of the audit scope and methodology,
           the review of the management control program, and prior coverage related to
           the audit objectives.




3
 The Navy selected the Automated Deep Operations Coordination System (ADOCS), a Defense
Advanced Research Projects Agency and Army program, to be the foundation on which it would build
the NFCS.
4
    Formerly Interactive Television Company, which General Dynamics Information Systems acquired.
5
TLN is a compound acronym comprised of the first letter of the acronyms for the Tactical Tomahawk
Weapons Control System (TTWCS), the Land Attack Missile Fire Control System (LAM FCS), and the
Naval Fire Control System (NFCS).

                                                   2
                   A. Naval Fires Control System
                      Development and Acquisition
                   The NFCS Program Office efforts to develop and acquire NFCS Phase II
                   duplicated the existing and planned functionality of the AFATDS. This
                   condition occurred because the Navy believed that the AFATDS was
                   unacceptable for Naval use even though the AFATDS fully or mostly
                   met 94 percent of the operational requirements document (ORD)
                   requirements for NFCS Phase I and 100 percent for NFCS Phase II and
                   the Marine Corps supported the AFATDS for Naval use. The Navy
                   believed that the AFATDS was unacceptable because:

                           •   the opportunity for AFATDS software reuse was significantly
                               less than that of NFCS,

                           •   AFATDS use of the Ada legacy code and the UNIX6
                               operating system made program manipulation difficult, and

                           •   the estimated life-cycle cost of the AFATDS was nearly
                               double that of NFCS.

                   As a result, the Navy, including the Marine Corps, planned to obligate
                   $71.2 million in research, development, test and evaluation funding from
                   FY 2002 through FY 2007 for NFCS Phase II requirements that
                   duplicate functions of AFATDS on amphibious ships.

Policy for the Acquisition Strategy, Acquisition Plan, and
  Analysis of Alternatives
           The following provides acquisition strategy, acquisition plan, and analysis of
           alternatives (AoA) policy.

           Acquisition Strategy. DoD Instruction 5000.2, “Operation of the Defense
           Acquisition System,” Change 1, January 4, 2001, and Secretary of the Navy
           Instruction 5000.2B, “Implementation of Mandatory Procedures for Major and
           Non-Major Defense Acquisition Programs and Major and Non-Major
           Information Technology Acquisition Programs,” December 6, 1996, provide
           acquisition strategy guidance for Navy programs.

                  DoD Instruction. DoD Instruction 5000.2 states that, for an
           evolutionary acquisition approach, the ultimate capability delivered to the user is
           divided into two or more blocks with increasing increments of capability.
           Deliveries for each block may extend over months or years.




6
    Uniplexed Information and Computer Systems

                                                 3
           The treatment of subsequent blocks has the following two approaches.

                    •   Each block will have a baseline, and the acquisition strategy will
                        define each block of capability and how it will be funded, developed,
                        tested, produced, and operationally supported.

                    •   The acquisition strategy will define the first block of capability and
                        how it will be funded, developed, tested, produced, and supported;
                        the full capability that the evolutionary acquisition is intended to
                        satisfy and the funding and schedule planned to achieve the full
                        capability to the extent that they can be described; and the
                        management approach to be used to define the requirements for each
                        subsequent block and the acquisition strategy applicable to each
                        block, including whether end items delivered under earlier blocks
                        will be retrofitted with later block improvements.

                   Navy Instruction. Secretary of the Navy Instruction 5000.2B states that
           the program managers for all Navy programs will develop an acquisition
           strategy by implementing the requirements of DoD Regulation 5000.2-R,
           “Mandatory Procedures for Major Defense Acquisition Programs (MDAPs) and
           Major Automated Information System (MAIS) Acquisition Programs.”7 The
           Regulation describes the relationship of the essential elements of a program
           including: requirements, program structure, acquisition approach, risk,
           program management, design considerations, support strategy, and business
           strategy.

           Acquisition Plan. Secretary of the Navy Instruction 5000.2B states that the
           acquisition plan will meet Federal Acquisition Regulation requirements. The
           Federal Acquisition Regulation states that the acquisition plan must identify
           those milestones at which decisions should be made and must address all the
           technical, business, management, and other significant considerations that will
           control the acquisition.

           Analysis of Alternatives. DoD Instruction 5000.2 and Secretary of the Navy
           Instruction 5000.2B provide guidance for an AoA for Navy programs.

                   DoD Instruction. DoD Instruction 5000.2 states that the concept to
           exploit in systems acquisition is based on an AoA to determine ways to meet the
           military need, including commercial and nondevelopmental technologies and
           products and services determined through a market analysis. The DoD
           Component responsible for the mission area in which a deficiency or
           opportunity has been identified, not the program manager, will normally prepare
           the AoA. However, program managers or their representative may participate
           in the analysis. Further, the Instruction states that the goal is to develop the best
           overall value solution over the system’s life cycle that meets the user’s
           operational requirements. Generally, the use or modification of systems or
           equipment that the DoD Components already own is more cost- and
           schedule-effective than acquiring new materiel. If existing military systems or
           other on-hand materiel cannot be economically used or modified to meet the

7
    The latest version of DoD Regulation 5000.2-R was dated June 10, 2001.

                                                    4
    operational requirement, an acquisition program may be justified and acquisition
    decisionmakers will follow a hierarchy of alternatives. Important in this
    evaluation process are considerations for interoperability and supportability with
    existing and planned future components or systems.

           Navy Instruction. Secretary of the Navy Instruction 5000.2B defines
    the AoA development and coordination procedures for weapons systems and
    information technology programs. The analysis process provides a forum for
    involving the Chief of Naval Operations, the Commandant of the Marine Corps,
    and the acquisition community, as applicable, in the analysis of alternative
    discussions. The intent of an AoA is twofold:

                  •   to aid in the resolution of milestone decision authority issues
                      and
                  •   to provide analytical insight and the basis for operational
                      performance characteristics.

    The milestone decision authority, or designee, and the Deputy Chief of Naval
    Operations (Resources, Warfare Requirements, and Assessments) approves the
    scope of an AoA for Acquisition Category III programs. At the end of the
    analysis process, the organization responsible for conducting the AoA presents a
    final briefing of analysis results to the AoA integrated product team. If
    required, the milestone decision authority and the Deputy Chief of Naval
    Operations (Resources, Warfare Requirements, and Assessments) approve the
    AoA final report. Appendix C provides a flow chart of the process.

Efforts to Develop and Acquire NFCS
    The NFCS Program Office efforts to develop and acquire the NFCS Phase II
    duplicated the existing and planned functionality of the AFATDS. This
    condition occurred because the Navy stated in the NFCS acquisition strategy and
    acquisition plan that the AFATDS was unacceptable for Naval use. However,
    the AoA showed that AFATDS fully or mostly met 94 percent of the ORD
    requirements for Phase I and 100 percent for Phase II and that the Marine Corps
    supported the AFATDS for Naval use.

    Acquisition Strategy. The “NFCS Acquisition Strategy,” October 7, 1998,
    stated that an engineering analysis of Government-off-the-shelf programs
    conducted by the Space and Naval Warfare Systems Center San Diego
    determined that the Automated Deep Operations Coordination System (ADOCS)
    contained a majority of the NFCS required functionality and that ADOCS was
    selected to be the foundation on which the Navy would build the NFCS. The
    Navy uses a variant of ADOCS, called Land Attack Warfare System (LAWS) in
    its Fleet battle experiments to gain Fleet input and potential requirements.




                                        5
        Further, the acquisition strategy stated that AFATDS, which was the other
        system examined in the engineering analysis, was unacceptable for Navy use
        because:

                 •   the opportunity for AFATDS software reuse was significantly less
                     than that of NFCS,

                 •   the use of the Ada programming language and the UNIX operating
                     system made program manipulation difficult,8 and

                 •   the estimated life-cycle cost of AFATDS was nearly double that of
                     NFCS.

        The acquisition strategy stated that the Center for Naval Analyses would
        conduct an AoA for which the scope would be defined by the Office of the
        Deputy Chief of Naval Operations (Naval Warfare) to include the engineering
        analysis by the Space and Naval Warfare System Center San Diego and the
        ORD key performance parameters for NFCS. Further, the acquisition strategy
        anticipated a sole-source contract with General Dynamics Information Systems
        for the NFCS Phase I Program. During the contract, the contractor would
        modify ADOCS to support NFCS requirements. The acquisition strategy also
        states that requirements definition for Phase II would begin in FY 1999 and that
        the acquisition strategy would be reviewed at least annually. On November 18,
        2000, the PEO(S) issued a memorandum that revised the exit criteria for
        entering NFCS Phase II and granted approval to begin engineering and
        manufacturing development for the NFCS Phase I Plus; however, the NFCS
        Program Office had not updated the acquisition strategy to define the
        engineering and manufacturing development phase for NFCS Phase I Plus.

               Software Reuse. In an April 1998 memorandum, the Space and Naval
        Warfare System Center San Diego stated that reusing ADOCS software for
        NFCS was cheaper and faster because ADOCS executes on a Windows NT
        workstation and AFATDS does not. Instead, AFATDS executes on a UNIX
        platform and could encounter problems when moved to a Windows NT
        workstation. Although AFATDS software reuse was a potential problem for
        NFCS Phase I, it should not be a problem for NFCS Phase II because:

                         •    AFATDS fully or mostly met 100 percent of the ORD
                              requirements, as discussed in the March 25, 1999, AoA;9 and
                         •    the AFATDS contractor was developing modules that would
                              operate on a Windows based operating system.




8
  In August 2001, the SSC-SD stated that the Ada programming language was the problem and not the use
of the UNIX operating system.
9
 In August 2001, the NFCS Program Office stated that it believed that AFATDS fully or mostly supports
100 percent of the NFCS Phase II requirements in the ORD with the exception of critical gun and missile
fire control interfaces even though the AoA did not address this belief.

                                                   6
                  Programming Language. The Space and Naval Warfare System Center
           San Diego further stated in its April 1998 memorandum that programming in
           “C++” was preferable to programming in the Ada programming language
           because:

                         •      higher quality and less expensive programming tools were
                                available for “C++,”

                         •      using “C++” would avoid introducing mixed language
                                problems, and

                         •      finding skilled “C++” programmers was easier than finding
                                skilled Ada programmers.
           In determining whether “C++” was of higher quality and less expensive, the
           Center for Naval Analyses concluded in its March 1999 AoA for the NFCS that
           practical comparisons of programming languages were difficult to achieve
           because large software projects are not performed in parallel to determine which
           language or programming tool is better and that determining which language to
           use is subjective. However, detailed comparisons of a few cases gave the
           advantage to Ada in reliability, maintainability, and modular design.

           Concerning mixed languages and programmers, the Center for Naval Analyses
           stated in its March 1999 AoA that the commercial world used “C++” and Ada
           programming languages, and that writing code in “C++” was generally easier.
           However, the AoA concluded that writing bug-free code in Ada was easier and
           that, although Ada programmers were fewer than “C++” programmers, they
           were available. Because the ORD requires that NFCS interface with AFATDS
           and other command and control systems, the Navy had already introduced
           multiple programming languages associated with those systems.

                   Estimated Life-Cycle Cost. In an October 1998 memorandum, the
           Space and Naval Warfare System Center San Diego estimated the life-cycle
           development and maintenance cost to produce the NFCS and the AFATDS over
           a 15-year life cycle to be $111.6 million and $254.6 million, respectively.
           Space and Naval Warfare System Center San Diego personnel stated that the
           AFATDS estimate was based on discussions with Space and Naval Warfare
           System Center San Diego staff who had worked on AFATDS and was not based
           on data from the Army because such data was unavailable. Further, Space and
           Naval Warfare System Center San Diego personnel stated that the life-cycle cost
           estimate for NFCS was no longer valid and should not be used as a basis for
           current decisionmaking because the estimate was based on the Software
           Requirements Specification for the Naval Surface Fire Support Warfare Control
           System10 instead of the ORD. The Space and Naval Warfare System Center San
           Diego staff recommended that an independent third party, such as the Naval
           Center for Cost Analysis, conduct a cost comparison between AFATDS and
           NFCS using updated life-cycle cost estimates. The Project Manager, AFATDS,
           stated that, when comparing the life-cycle cost estimates for the AFATDS and
           the NFCS, the Navy should compare only those costs that represent

10
     Renamed NFCS in FY 1998.

                                                 7
        Navy-unique requirements or interfaces because the Army will absorb the costs
        for functionality and interface requirements that are common to the Army and
        the Navy. Further, the Project Manager, AFATDS, believes that:

                  •   Navy-unique costs of using AFATDS to accomplish the NFCS
                      Phase II requirements would be significantly less than cost estimates
                      for NFCS Phase II, and

                  •   the Navy would have instant fire support digital compatibility with
                      the Marine Corps and the Air Force that have AFATDS and the
                      Theater Battle Management Core System,11 respectively.

        Acquisition Plan. The NFCS Acquisition Plan, December 7, 1998, details the
        design, development, and manufacture of the NFCS and restates the comments
        made in the acquisition strategy about AFATDS software reuse, legacy code
        use, and an estimated life-cycle cost of $200 million over a 15-year life cycle.
        The acquisition plan states that the Center for Naval Analyses, in conjunction
        with the AoA for NFCS, was conducting a life-cycle cost estimate for various
        development options that would be available in early 1999. In the AoA briefing
        charts, the Center for Naval Analyses did not provide a total life-cycle cost
        estimate for NFCS. However, on May 13, 1999, the NFCS Program Office
        prepared a life-cycle cost estimate for the design, development, test and
        evaluation, production, Fleet introduction, and sustainment of Fleet support for
        the NFCS Phase I over a 15-year period, totaling $107.7 million (FY 1999).12
        The Center for Naval Analyses examined the portion of the life-cycle cost
        estimate that deals with Phase I program development and determined that those
        costs were reasonable, though containing some risk, which the Program
        Manager, PMS 529, determined to be acceptable.

        For NFCS Phase II, the acquisition plan states that the Phase II contract would
        use the delivered Phase I software product. However, the acquisition plan did
        not define the engineering and manufacturing development phase for NFCS
        Phase I Plus, as discussed in PEO(S) memorandum, November 18, 2000.
        Before the PEO(S) memorandum, the NFCS Program Office issued an
        acquisition plan for NFCS Phase I Plus and the Land Attack Missile Fire
        Control System, which the Navy approved on August 31, 2000. This
        acquisition plan addresses the implementation of NFCS Phase I Plus and the
        Land Attack Missile Fire Control System capability but did not address the
        NFCS Phase II.

        Analysis of Alternatives. The Center for Naval Analyses conducted the AoA
        for the NFCS and, on March 2, 1999, briefed the Deputy Program Executive
        Officer, Theater Surface Combatants, on its preliminary results. On March 25,
        1999, the Center for Naval Analyses provided a final AoA in the form of


11
   The Theater Battle Management Core System provides command and control and Air Tasking Order
generation, situational awareness and current intelligence data, and a common communication network
for use at Air Force wings.
12
   This amount did not include Phase II cost estimates and subsystems and components for which support
funding is the responsibility of another project office.

                                                   8
        briefing charts,13 which concluded that AFATDS was substantially closer to
        meeting ORD requirements because AFATDS fully or mostly met 94 percent of
        those requirements for Phase I and 100 percent for Phase II. The briefing charts
        provided the advantages and disadvantages of the LAWS and AFATDS as
        candidates for NFCS; however, the charts did not provide a recommendation
        because a recommendation was not required in the AoA scope.

        Based on the March 2, 1999, briefing and a strong recommendation from the
        PMS 529 Program Office, the Deputy Program Executive Officer, Theater
        Surface Combatants, selected the LAWS/ADOCS approach for NFCS Phase I.
        The Deputy Program Executive Officer and the PMS 529 Program Office
        supported the selection of the LAWS/ADOCS approach because it uses a newer
        source code; runs on a windows-based operating system; was recommended by
        the Space and Naval Warfare System Center San Diego; and is user friendly,
        interoperable with AFATDS, and used by the Fleet. Further, the PMS 529
        Program Office stated that the LAWS/ADOCS approach for NFCS Phase I was
        low risk, will keep the program timeline on track, and meet Navy requirements.
        Additionally, the PMS 529 Program Office was working with the Project
        Manager, AFATDS, on possible future uses of AFATDS for more complex
        Naval fires coordination functions.

AFATDS Interface With NFCS
        To accomplish its operational maneuver from the sea objectives, the Marine
        Corps needs an interface between AFATDS and sea-based fire support by
        FY 2004. NFCS Phase I, as planned, should provide that interface. If the
        Navy deploys subsequent phases of NFCS to the Marine Corps, the decision
        will affect Marine Corps training and personnel as well as its Supporting Arms
        Coordination Center (SACC).

        Operational Maneuver From the Sea. On June 16, 1999, the Commanding
        General, Marine Corps Combat Development, issued a memorandum that
        discussed the Marine Corps’ requirements for Naval surface-fire support. The
        Marine Corps did not envision Naval surface-fire support, which includes
        NFCS, replacing a robust expeditionary artillery capability once it was ashore,
        but rather supplementing the organic fires of the Marine Corps forces with deep
        fires and counterfire. Central to an effective Naval fire support system is the
        ability of the commander, who is responsible for the mission, to plan, allocate,
        control, and coordinate fires from all available systems. Because that
        responsibility may shift between the Navy and the landing force commander
        during operations, the information must be shared and air and surface fires
        coordinated, not only between the Navy and the landing force, but with higher
        and adjacent units as well, whether they are Naval or joint Service. Navy
        shipboard command and control systems must be fully functional and
        interoperable with Marine Corps command and control systems, including
        AFATDS. Naval surface-fire support platforms and amphibious ships must be
        able to access, input, receive, process, and disseminate information to and from

13
   The Center for Naval Analysis was not required to follow up the March 25, 1999, briefing charts with a
formal report for the AoA.

                                                   9
        AFATDS. To be a complete system that effectively supports the land forces, all
        target acquisition elements of the fire support system must be directly tied into
        AFATDS, the fire support command and control network.

        Training and Personnel. Marine Corps personnel receive extensive training
        with Army personnel in the use of AFATDS at Fort Sill, Oklahoma. Once the
        Marines are trained, operation of AFATDS is their primary duty. Therefore, if
        the Navy deploys NFCS to the Marine Corps, the Marines will require
        additional training to achieve NFCS proficiency. Even if the Marine Corps
        receives the NFCS, it still needs AFATDS to be interoperable with Army units
        for automated command, control, and communications fire support.

        Supporting Arms Coordination Center. The SACC provides centralized and
        coordinated fire support of the artillery, air, and Naval gunfire. The Navy had
        installed and planned to install AFATDS in the SACC on selected amphibious
        assault ships as an interim system until a decision is made on a designated future
        system. Once the Marines go ashore from the amphibious ships, they establish
        the Fire Support Coordination Center14 using AFATDS and the SACC becomes
        a backup system on the amphibious ship to monitor fire missions. If the Fire
        Support Coordination Center is destroyed, the SACC becomes the primary
        coordination center between forces ashore and naval gunfire. Consequently, if
        NFCS Phase II is installed on the amphibious assault ships, which already have
        AFATDS, the Marines must maintain two systems for fire mission planning and
        coordination.

Effect of Continuing NFCS Development
        By not ensuring that efforts to develop and acquire the NFCS Phase II did not
        duplicate the existing and planned functionality of the AFATDS on amphibious
        ships, the Navy, including the Marine Corps, will obligate another
        $71.2 million in research, development, test and evaluation funding from
        FY 2002 through FY 2007 for NFCS Phase II that duplicates the SACC
        functionality of the AFATDS.

        Efforts to Develop and Acquire the NFCS. After the completion of Phase I
        and Phase I Plus, the Project Manager, NFCS, planned to spend $50.9 million
        in research, development, test and evaluation funding from FY 2002 through
        FY 2007 for SACC requirements, as part of NFCS Phase II. Those efforts to
        meet SACC requirements will duplicate the SACC functionality of the
        AFATDS. Further, the Marine Corps planned to spend $20.3 million in
        research, development, test and evaluation funding from FY 2002 through
        FY 2005 for developing and procuring NFCS for amphibious ships to meet
        SACC requirements as part of a collaboration between the Expeditionary
        Warfare and Surface Warfare Divisions, Office of the Deputy Chief of Naval
        Operations (Naval Warfare), to jointly develop and field NFCS to satisfy Naval
        doctrine to project Naval power ashore in support of the Marine Corps. The
        Navy will fund and devise a strategy for the NFCS Phase II on amphibious ships

14
   The Fire Support Coordination Center is a single location in which are centralized communications
facilities and personnel to coordinate all forms of fire support.

                                                   10
        in FY 2002 and for cruisers and destroyers in FY 2004. The NFCS Phase II
        effort for cruisers and destroyers will consider software reuse of AFATDS
        functionality built on the NFCS Phase I product to meet NFCS Phase II
        requirements.

        Funds Put to Better Use. The Navy, including the Marine Corps, could put
        $71.2 million15 of remaining research, development, test and evaluation funds to
        better use if the Navy determines that:

                •    NFCS Phase II duplicates the SACC functionality of the AFATDS on
                     selected amphibious ships, and

                •    AFATDS is a more cost-effective alternative for satisfying NFCS
                     Phase II requirements.

Management Comments on the Finding and Audit Responses
        Summaries of management comments on the finding and our responses are in
        Appendix D.

Recommendations, Management Comments, and Audit
  Responses
        Redirected and Revised Recommendations. Because the Navy comments did
        not meet the intent of Recommendations A.1. and A.2., we redirected and
        revised those recommendations, respectively. For Recommendation A.1., we
        redirected the recommendation from the Director, Naval Center for Cost
        Analysis, to the Under Secretary of Defense for Acquisition, Technology, and
        Logistics, to ensure that the Navy properly conducts an updated life-cycle cost
        comparison between AFATDS and NFCS. For Recommendation A.2., we
        revised the recommendation to clarify the actions needed to ensure that the Navy
        properly determines whether NFCS Phase II meets Naval doctrine, whether it
        duplicates existing AFATDS functionality, and whether it should continue to be
        funded.

        A.1. We recommend that the Under Secretary of Defense for Acquisition,
        Technology, and Logistics require the Assistant Secretary of the Navy
        (Research, Development, and Acquisition) to direct the Naval Center for
        Cost Analysis to conduct a life-cycle cost comparison between the Army
        Advanced Field Artillery Tactical Data System and the Naval Fires Control
        System to determine which system most cost-effectively meets the

15
  Of the $71.2 million in research, development, test and evaluation funding, the Navy and the Marine
Corps planned a total of $50.9 million and $20.3 million, respectively, for the NFCS Phase II SACC
requirements in FYs 2003 through 2007, and FYs 2002 through 2005, respectively. The Navy research,
development, test and evaluation funding includes $2.0 million in FY 2003, $9.6 million in FY 2004,
$15.3 million in FY 2005, $14.0 million in FY 2006, and $10.0 million in FY 2007. The Marine Corps
research, development, test and evaluation funding includes $5.8 million in FY 2002, $7.4 million in
FY 2003, $6.9 million in FY 2004, and $0.2 million in FY 2005.

                                                 11
requirements in the operational requirements document for the Naval Fires
Control System Phase II and provide the results to the Deputy Chief of
Naval Operations (Naval Warfare) and the Program Manager, Naval Fires
Control System (PMS 529).

Management Comments. The Deputy Assistant Secretary of the Navy, Ship
Programs, Office of the Assistant Secretary of the Navy (Research,
Development, and Acquisition), concurred with the intent of the
recommendation, stating that the Navy understands that the AFATDS is being
upgraded to make the code more transportable. Further, the Deputy stated that
the Office of the Chief of Naval Operations is updating the ORD for the NFCS
and will evaluate the updated AFATDS against the NFCS Phase II
requirements. The Deputy also stated that, if the updated AFATDS is
determined to be a viable alternative for NFCS, a life-cycle cost analysis would
be appropriate. For the complete text of the Deputy’s comments, see the
Management Comments section of this report.

Audit Response. The Navy comments were not responsive. A comparison
between AFATDS and NFCS life-cycle costs, which was not based on objective
data, was one of the reasons why the Navy did not choose AFATDS to meet the
user’s operational requirements. However, because AFATDS fully or mostly
met 94 percent of the ORD requirements for Phase I and 100 percent for
Phase II and the Marine Corps supported the AFATDS for Naval use, AFATDS
clearly is a viable alternative unless the Navy develops completely new
requirements in its updated ORD for NFCS. Therefore, the primary issue is
cost effectiveness, making a life-cycle cost analysis appropriate. Without an
updated life-cycle cost comparison between AFATDS and NFCS in the Navy’s
evaluation of the updated AFATDS against the NFCS Phase II requirements, the
Navy cannot determine which system is the most viable and cost-effective to
meet the user’s operational requirements. Therefore, we request that the Under
Secretary of Defense for Acquisition, Technology, and Logistics comment on
this recommendation and direct the Navy to conduct an updated life-cycle cost
comparison between AFATDS and NFCS to ensure that the Navy determines
which system most cost-effectively meets the requirements in the updated ORD
for NFCS Phase II.

A.2. We recommend that the Deputy Chief of Naval Operations (Naval
Warfare) determine whether Phase II of the Naval Fires Control System in
the updated operational requirements document meets Naval doctrine to
project Naval power ashore in support of the Marine Corps, whether it
duplicates existing Army Advanced Field Artillery Tactical Data System
functionality, and whether it should continue to be funded by the Navy.

Management Comments. The Deputy Assistant Secretary of the Navy, Ship
Programs, concurred with the intent of the recommendation, stating that the
Office of the Chief of Naval Operations concluded that NFCS Phase II met the
Naval doctrine requirements for fire support in support of ground forces ashore.
In addition, the Deputy restated the comments in the report on why AFATDS
was not chosen during the NFCS Phase I program selection. Further, the
Deputy stated that, since the NFCS Phase I selection, the Navy understands that
the AFATDS is being upgraded to make the code more transportable, and that
the Office of the Chief of Naval Operations is updating the ORD for the NFCS

                                   12
and will evaluate the updated AFATDS against the NFCS Phase II
requirements. The Deputy also stated that the Navy must continue to fund the
NFCS Phase II functionality to support the evolving expeditionary maneuver
concepts of the Marine Corps.

Audit Response. The Navy comments were not responsive. The conclusion by
the Office of the Chief of Naval Operations that NFCS Phase II meets the Naval
doctrine requirements for fire support in support of ground forces ashore
appears to be premature. The Surface Warfare Division, Office of the Deputy
Chief of Naval Operations (Naval Warfare), is updating the ORD for the NFCS
to include development of NFCS Phase II requirements, evolving Marine Corps
doctrine, and improved Naval surface-fire support capabilities, as discussed by
the Deputy in his response to Recommendation C.1. Further, the continued
funding of NFCS Phase II functionality is a potential waste of funds because
NFCS Phase II duplicates the existing and planned SACC functionality of the
AFATDS on amphibious ships. Therefore, after the Navy updates the ORD for
the NFCS, we request that the Deputy Chief of Naval Operations (Naval
Warfare) reconsider the Office of the Chief of Naval Operations’ conclusion that
NFCS Phase II met the Naval doctrine requirements for fire support in support
of ground forces ashore and determine whether NFCS Phase II duplicates
existing AFATDS functionality and should continue to be funded.

A.3. We recommend that the Program Manager, Naval Fires Control
System (PMS 529), update the acquisition strategy to incorporate Phase I
Plus of the Naval Fires Control System and update the acquisition strategy
and the acquisition plan with the results of the Deputy Chief of Naval
Operations (Naval Warfare) review and the Director, Naval Center for Cost
Analysis, life-cycle cost comparison.

Management Comments. The Deputy Assistant Secretary of the Navy, Ship
Programs, concurred, stating that further definition of NFCS Phase I Plus
requirements may not be required because of potential changes to the Land
Attack Missile program. Further, the Deputy stated that the Navy will update
the acquisition strategy and the acquisition plan to include NFCS Phase I Plus, if
required, and to include future program phases before beginning Phase II
engineering and manufacturing development. The Deputy also stated that the
cruiser-destroyer ships will continue to use an NFCS-based solution and will
consider reusable AFATDS software segments, if available for NFCS Phase II.
In addition, the Deputy stated that the Program Manager, Expeditionary
Warfare Life-Cycle Support, is developing an acquisition strategy and
acquisition plan to meet the Fires Coordination Element Required Capabilities in
the ORD for the NFCS.




                                    13
           B. Earned Value Management System
           The earned value management system (EVMS) for the NFCS did not
           provide the program office with information needed to effectively
           manage the program’s cost and schedule data. This condition occurred
           because:

                  •   the Defense Contract Management Agency did not certify the
                      EVMS, and

                  •   the NFCS Program Office did not provide oversight to ensure
                      the validity of contractor cost and schedule performance data.

           Without a certified EVMS that accurately shows contractor cost and
           schedule performance data, the Navy increased the risk of the program
           being adversely affected by undisclosed cost and schedule overruns.

Earned Value Management Guidance
    The “Earned Value Management Implementation Guide,” Revision 1,
    October 3, 1997, provides guidance to be used during the implementation and
    surveillance of the EVMS. The Guide states that earned value management is a
    tool that allows Government and contractor program managers to have visibility
    into technical, cost, and schedule progress on their contracts. Implementation of
    an EVMS integrates cost, schedule, and technical aspects of the contract and
    provides the program manager with contractor cost and schedule performance
    data that:

           •   relates time-phased budgets to specific contract tasks or statements of
               work, or both;

           •   indicates work progress;

           •   properly relates cost, schedule, and technical accomplishments;

           •   are valid, timely, and auditable;

           •   provides managers with summarized information at a practical level;
               and

           •   are derived from the same internal EVMS that the contractor uses to
               manage the contract.

    The DoD formally recognizes industry-standard criteria as defining acceptable
    EVMS requirements, which are outlined in DoD Regulation 5000.2-R.




                                          14
Analysis of Contractor Earned Value Management System
    The Defense Contract Management Agency did not certify the EVMS for the
    NFCS, and the NFCS Program Office did not provide oversight to ensure the
    validity of contractor cost and schedule performance data.

    Defense Contract Management Agency. The program integrator at the
    Defense Contract Management Agency, who is responsible for NFCS oversight,
    stated that the contractor’s EVMS had not been certified. Further, he stated that
    Defense Contract Management Agency personnel had not reviewed NFCS cost
    and schedule performance data because the NFCS Program Office and the
    Defense Contract Management Agency did not have a memorandum of
    agreement between them to conduct the certification and reviews. On June 11,
    2001, the Project Manager, NFCS, stated that he would request that the Defense
    Contract Management Agency conduct a review of the contractor’s EVMS and
    monthly reports. However, in August 2001, the NFCS Program Office stated
    that it did not believe that certification would be an efficient use of program
    resources because:

           •   the NFCS Phase I contract would end in April 2002 and

           •   the system in place provided satisfactory, tailored EVMS data.

    NFCS Program Office. The NFCS Program Office did not validate the
    contractor’s EVMS data because it believed that Defense Contract Management
    Agency personnel were conducting the validation and because the requirements
    for cost and schedule performance data were tailored to accommodate the
    contractor’s inexperience and the size of the program, which is an Acquisition
    Category III program.

Continuing Earned Value Management System Without
  Oversight
    Without a certified EVMS that accurately shows contractor cost and schedule
    performance data, the Navy increased the risk of the program being adversely
    affected by undisclosed cost and schedule overruns. Further, the Navy cannot
    ensure that contractor cost and schedule performance data properly relate
    time-phased budgets to specific contract tasks or statements of work, or both,
    and cost, schedule, and technical accomplishments. For example, the contractor
    could not show how much time or cost had been spent to conduct coding and
    testing on each of 45 software packages. Therefore, the NFCS Program Office
    was solely reliant upon contractor information and could not evaluate the
    software other than by testing. As another example, the contractor did not
    appropriately classify costs in its EVMS reports for its quality assurance
    reviews, which consisted primarily of grammatical changes to documents.
    When questioned about software quality assurance, the contractor stated that
    costs associated with that effort were included under the software development



                                       15
    element and not quality assurance. According to the program integrator, the
    contractor could mislead the Government on its actual progress and postpone
    cost overruns indefinitely by not appropriately classifying costs in its EVMS.

Management Comments on the Finding and Audit Responses
    Summaries of management comments on the finding and our responses are in
    Appendix D.

Recommendations, Management Comments, and Audit
  Response
    Revised Recommendation. Because the Navy comments did not meet the
    intent of Recommendations B.1. and B.2., we revised those recommendations
    to clarify the actions needed to ensure that the EVMS for Phase I Plus and
    future NFCS contracts, as applicable, are in accordance with DoD
    Regulation 5000.2-R so that the program manager can obtain integrated cost
    and schedule performance data that meet EVMS guidelines to effectively
    monitor program execution.

    B. We recommend that the Program Manager, Naval Fires Control System
    (PMS 529):

            1. Request that the Defense Contract Management Agency conduct
    certification reviews of the Phase I Plus and future Naval Fires Control
    System contracts that require an earned value management system, in
    accordance with DoD Regulation 5000.2-R, “Mandatory Procedures for
    Major Defense Acquisition Programs (MDAPs) and Major Automated
    Information System (MAIS) Acquisition Programs,” June 10, 2001.

           2. Conduct periodic reviews of future Naval Fires Control System
    contracts with a required earned value management system to validate
    contractor cost and schedule performance data.

    Management Comments. The Deputy Assistant Secretary of the Navy, Ship
    Programs, Office of the Assistant Secretary of Navy (Research, Development,
    and Acquisition), nonconcurred, stating that the NFCS Phase I Plus contract
    ends in April 2002; therefore, a certification review would not be an efficient
    use of program resources. Further, the Deputy stated that the existing system
    provides satisfactory, tailored EVMS data and is in accordance with the
    requirements of DoD Regulation 5000.2-R for an Acquisition Category III
    program contract value; consequently, no further action is required. For the
    complete text of the Deputy’s comments, see the Management Comments
    section of this report.

    Audit Response. The Navy comments did not meet the intent of the
    recommendations. To state that the existing system provides satisfactory,
    tailored EVMS data and is in accordance with DoD Regulation 5000.2-R
    requirements has no basis in fact if the Navy has not conducted an independent

                                       16
certification review of the system to ensure that it meets EVMS guidelines.
Further, it is the NFCS Phase I contract that ends in April 2002 and not the
NFCS Phase I Plus contract, which does not end until February 2004, according
to the NFCS Program Office.

During the audit, the Project Manager, NFCS, stated that he would request the
Defense Contract Management Agency to conduct a review of the contractor’s
EVMS; however, he later decided not to request the review, citing reasons
similar to those discussed by the Deputy. As a consequence of that delay, the
time remaining before the Phase I contract ends in April 2002 is not enough to
conduct a review. However, for the Phase I Plus and future NFCS contracts
with EVMS, as applicable, the Navy should:

       •   request that the Defense Contract Management Agency conduct a
           certification review of the EVMS, in accordance with DoD
           Regulation 5000.2-R, at the time that the Navy awards the contract,
           and

       •   conduct periodic reviews to validate contractor cost and schedule
           performance data.

If the Navy does not conduct a certification review of the EVMS for the NFCS
and does not conduct periodic reviews of the system to validate contractor cost
and schedule performance data, the Navy cannot ensure that the contractor’s
EVMS is producing data that accurately indicate work progress; properly relate
cost, schedule, and technical accomplishments; and are valid, timely, and
auditable. Therefore, we request that the Deputy reconsider his response
concerning certification reviews of Phase I Plus and future NFCS contracts with
EVMS and periodic reviews of the system to validate contractor cost and
schedule performance data.




                                   17
            C. Updated Operational Requirements
               and Test and Evaluation Planning
            The NFCS did not have an updated and comprehensive ORD and TEMP
            that included user objectives and minimum acceptable requirements for
            NFCS Phase I Plus and the functionality of NFCS Phase II. This
            condition occurred because the Deputy Chief of Naval Operations (Naval
            Warfare) and PMS 529 did not update the ORD and the TEMP,
            respectively, to include Phase I Plus after the NFCS changed from two
            phases, Phase I and II, to three phases, Phase I, Phase I Plus, and
            Phase II. Without an updated and comprehensive ORD and TEMP that
            accurately show user and test and evaluation requirements for Phase I
            Plus and the functionality of NFCS Phase II, the Navy cannot plan for
            test resources required to test NFCS, thus impacting the NFCS schedule,
            cost, and performance; and cannot ensure that the NFCS meets minimum
            required system capabilities or characteristics considered essential for
            successful mission accomplishment.

Operational Requirements, Interoperability, and Test and
  Evaluation Policy
     The following provides an overview of DoD, Navy, and Joint Staff policy
     concerning operational requirements, interoperability, and test and evaluation.

     Operational Requirements Policy. DoD Instruction 5000.2; DoD
     Regulation 5000.2-R; Secretary of the Navy Instruction 5000.2B; and Chairman
     of the Joint Chiefs of Staff Instruction 3170.01B, “Requirements Generation
     System,” April 15, 2001, provide policy on operational requirements.

            DoD Policy. The policy requires the user or the user’s representative to
     prepare the ORD based on validated needs to address mission area deficiencies,
     evolving threats, and emerging technologies or weapon system improvements.

            Navy Policy. The policy states that the Chief of Naval Operations or the
     Commandant of the Marine Corps, or both, are responsible for the Navy
     requirements generation process, operational test and evaluation, readiness,
     planning, and programming to satisfy operational requirements, and for
     providing acquisition logistics support.

            Joint Staff Policy. The policy states that failure to meet an ORD key
     performance parameter threshold can be cause for the system selection to be
     re-evaluated or the program to be reassessed or terminated.

     Interoperability Policy. DoD Instruction 5000.2; DoD Regulation 5000.2-R;
     Secretary of the Navy Instruction 5000.2B; Chairman of the Joint Chiefs of
     Staff Instruction 3170.01B; and Chairman of the Joint Chiefs of Staff
     Instruction 6212.01B, “Interoperability and Supportability of National Security
     Systems, and Information Technology Systems,” May 8, 2000, provide policy
     on interoperability.

                                        18
            DoD Policy. The policy requires the program manager to address
    compatibility, interoperability, and integration key goals for all acquisition
    programs and to ensure that these goals are achieved throughout the acquisition
    life cycle for all acquisition programs. Further, the policy requires the Joint
    Interoperability Test Command to test and certify all Command, Control,
    Communications, Computers, and Intelligence (C4I) systems having joint
    interoperability requirements before the production milestone decision.

            Navy Policy. The policy states that Navy testers will use critical
    operational issues for joint interoperability to address effectiveness during
    operational testing for programs with joint interoperability requirements
    identified in the ORD.

            Joint Staff Policy. The policy states that interoperability key
    performance parameters in an ORD define the level of interoperability for the
    proposed system and that ORDs must be certified before each milestone,
    regardless of acquisition category, for conformance with joint national security
    systems and interoperability standards. Further, the policy states that the
    Defense Information Systems Agency and the Joint Interoperability Test
    Command (JITC) must certify test results for all interoperability system tests.
    In addition, the policy states that the U.S. Joint Forces Command will comment
    on interoperability issues for Acquisition Category III programs.

    Test and Evaluation Policy. DoD Instruction 5000.2, DoD
    Regulation 5000.2-R, Secretary of the Navy Instruction 5000.2B, and Chairman
    of the Joint Chiefs of Staff Instruction 6212.01B provide policy concerning test
    and evaluation.

            DoD Policy. The policy states that the test and evaluation master plan
    (TEMP) provides a framework to generate detailed test and evaluation plans for
    tests that the program office requires before key program decision points and
    identifies developmental and operational tests and evaluations needed to support
    the decisions.

            Navy Policy. The policy states that TEMPs are required for all Navy
    acquisition category programs. Further, the policy states that the ORD will
    show the changes to system requirements before TEMP update or revision.

            Joint Staff Policy. The policy states that Commanders-in-Chief,
    Military Departments, and agencies will incorporate interoperability testing into
    their overall testing plans in coordination with the Defense Information Systems
    Agency and JITC.

Current and Viable Test and Evaluation Master Plan
    The ORD and the TEMP for NFCS were not updated to include operational,
    interoperability, and test and evaluation requirements after the PEO(S) changed
    the NFCS from two phases, Phase I and II, to three phases, Phase I, Phase I
    Plus, and Phase II.


                                         19
Operational Requirements. On July 1, 1999, the Deputy Chief of Naval
Operations (Resources, Warfare Requirements, and Assessments) issued the
ORD, which described the NFCS in two phases, Phase I and II, and discussed
time-phased requirements to achieve a full-land attack warfare capability. On
November 18, 2000, the PEO(S) revised the exit criteria for NFCS Phase I and
granted approval to begin engineering and manufacturing development for
NFCS Phase I Plus. However, the Deputy Chief of Naval Operations did not
update the ORD to include operational requirements for NFCS Phase I Plus.
Phase I Plus encompasses part of the ORD Phase II requirements. As a result,
Phase II requirements, as well as Phase I Plus requirements, were not clearly
defined in the ORD. Additionally, the ORD needs to be updated with the
revised evolutionary approach to include how the Navy will provide NFCS
functionality to all Naval platforms that will support the operational command,
control, and coordination of Naval fires. Those platforms include destroyers,
cruisers, and amphibious ships on which the Navy plans to install NFCS. The
Navy may also install NFCS on command ships, submarines, and the proposed
Zumwalt Class (DD-21) destroyers, if required. The NFCS Program Office was
planning to install NFCS only on destroyers and cruisers, and possibly
amphibious ships. In August 2001, the NFCS Program Office stated that it will
address NFCS Phase I Plus in a revised ORD and TEMP for a NFCS Phase I
follow-on operational test and evaluation in February 2004.

Interoperability Requirements. The ORD for the NFCS did not include an
interoperability key performance parameter(s) even though NFCS did have a C4I
Support Plan. Further, the Navy had not incorporated the fire support
functionality requirements from the USS Coronado Fleet battle experiments
into the ORD for the NFCS.

         Key Performance Parameters. Chairman of the Joint Chiefs of Staff
Instruction 6212.01B requires the Director for Command, Control,
Communications, and Computers (J-6) to certify ORDs, regardless of
acquisition-category level, before each milestone for conformance with
interoperability standards and for inclusion of interoperability key-performance
parameters that are derived from information exchange requirements. As part
of the review process, J-6 requests assessments from the Military Departments,
the Defense Information Systems Agency, and DoD agencies. Interoperability
is critical because the NFCS is to operate with other Military Department
systems that conduct fire-mission planning and coordination.

As of December 2001, the Navy had not complied with the Joint Requirements
Oversight Council Memorandum, “Policy for Updating Operational
Requirements (ORDs) to Incorporate Interoperability Key Performance
Parameter (KPP) and Cost,” November 16, 1999. The memorandum required
DoD Components to:

       •   identify information exchange requirements, which support
           development of interoperability key performance parameters in
           ORDs; and

       •   update ORDs by March 1, 2001, that support an engineering and
           manufacturing development or production decision after March 1,


                                   20
                        2001, to comply with Chairman of the Joint Chiefs of Staff
                        Instruction 3170.01A, “Requirements Generation System,”
                        August 10, 1999.16

           Because the Navy did not update the ORD as required, J-6 was not able to
           review the ORD and coordinate it with the U.S. Joint Forces Command, the
           Military Departments, Commanders-in-Chief, and Defense agencies. Without
           such coordination, the J-6 had not obtained critical warfighter perspectives on
           joint operational concepts; joint interface requirements with other systems, such
           AFATDS; and critical technical reviews. Until the ORD is updated and
           approved, the Navy cannot approve the TEMP, which provides the overall
           structure and objectives for the initial operational test and evaluation to
           determine whether the NFCS meets user operational requirements. In August
           2001, the NFCS Program Office stated that it will add an interoperability key
           performance parameter when it updates the ORD for the NFCS. In the interim,
           interoperability and interface requirements are defined in interface control
           documents.

                   C4I Support Plan. Although the ORD for the NFCS did not include
           interoperability key performance parameters, the C4I Support Plan did include
           performance parameters. On January 31, 2001, the Space and Naval Warfare
           System Center San Diego issued a C4I Support Plan to PMS 529 for NFCS that
           included the information exchange requirements, which are the basis for
           interoperability key performance parameters, for communication and
           coordination links between organization elements involved in land-attack
           warfare. The C4I Support Plan discusses interfaces between land attack systems
           and associated C4I systems, both onboard and external to the surface combatant,
           and shows three fire support roles for NFCS. In each of the three fire support
           roles, NFCS is involved with AFATDS, which is an Acquisition Category I
           program. Therefore, the Assistant Secretary of Defense (Command, Control,
           Communications, and Intelligence) should review and assess the interoperability
           and information exchange requirements in the C4I Support Plan to resolve any
           interoperability issues that may arise between NFCS and AFATDS.

                   USS Coronado. The USS Coronado is the command and control ship
           for the Third Fleet and has numerous missions. One of its missions is acting as
           the Navy’s only sea-based battle laboratory, which manages and implements
           Fleet battle experiments for the Commander, Third Fleet. Part of the ship’s
           command and control functions is to provide joint fire support planning. To
           accomplish this task, the ship uses the Global Command and Control
           System-Maritime, which provides situation awareness information. The Global
           Command and Control System-Maritime interfaces with LAWS17 during Fleet
           battle experiments to communicate fire mission planning to destroyers and
           cruisers for shore bombardment even though it has AFATDS. However, the
           land forces use AFATDS to plan and coordinate fire missions and then to relay
           those fire missions over voice systems to destroyers and cruisers for shore
           bombardment. After NFCS is operational, it will interface with AFATDS to

16
   Instruction revised to Chairman of the Joint Chiefs of Staff Instruction 3170.01B, “Requirements
Generation System,” April 15, 2001,
17
     LAWS is a science and technology prototype.

                                                   21
        reduce the need for voice communication. To ensure that the Global Command
        and Control System-Maritime, LAWS, AFATDS, and NFCS effectively
        interface, the Navy needs to update the ORD to include NFCS Phase I Plus, the
        functionality of Phase II, and the interface fire support functionality
        requirements of the USS Coronado.

        Test and Evaluation Requirements. On September 7, 1999, PMS 529
        approved the TEMP, which described the NFCS in Phase I and Phase II only,
        and provided measures of effectiveness for testing that were based on
        operational requirements in the July 1, 1999, ORD. The TEMP also discussed
        interoperability testing based on the two phases, and specified operational
        milestones to demonstrate NFCS interoperability with identified systems.
        Consequently, the test and evaluation plans for measures of effectiveness and
        interoperability should be updated to include Phase I Plus requirements. The
        TEMP states that the Naval Surface Warfare Center, Port Hueneme, California,
        will be responsible for developmental test and evaluation during shipboard
        events. The Commander, Operational Test and Evaluation Force, will monitor
        all development testing, as well as planning and executing operational test and
        evaluation events for the NFCS. The first and second developmental tests for
        Phase I are scheduled for the fourth quarter, FY 2001, and the second quarter,
        FY 2002, respectively. The operational assessment is scheduled for the
        third quarter, FY 2002.18 However, the TEMP did not include a schedule for
        the NFCS Phase I Plus Program. Although the TEMP discusses test resources
        and fire mission planning, they may not be sufficient to validate that NFCS
        performance exceeds the performance of the baseline associated with the current
        manual process.

                Test Resources for Phase I and Phase I Plus. The Navy may not
        have sufficient test resources for Phase I and Phase I Plus. Personnel at the
        Office of the Commander, Operational Test and Evaluation Force, and the
        Naval Surface Warfare Center, Port Hueneme, indicated that test resources,
        such as areas to conduct live fire testing, a designated ship to host the NFCS for
        operational evaluation, and Marines acting as forward observers to designate
        targets for testing Phase I, have not been committed. However, the Navy is
        attempting to obtain those resources. Without those resources, cost and
        schedule for the NFCS, which the NFCS Program Office manages, may be
        affected. The Commander, Operational Test and Evaluation Force, and the
        Naval Surface Warfare Center, Port Hueneme, are defining and committing
        resources to execute the plan but, as of December 2001, could not define the
        cost for operationally testing the NFCS and were still deciding:

                         •    where the operational test would be conducted,

                         •    which operational ship the Navy would use to test the NFCS,
                              and

                         •    whether all NFCS requirements could be fully tested to the
                              objectives and thresholds stated in the July 9, 1999, TEMP.

18
   Because of Fleet operational exercises, the Navy may have to conduct a combined developmental and
operational test, which would also require an update to the TEMP.

                                                  22
        Further, the Naval Surface Warfare Center, Port Hueneme, indicted that it
        would not fully test all NFCS requirements to their threshold limits in a ship
        environment, but rather at a land-based facility, because of cost and schedule
        constraints.

                Fire Mission Planning. Before NFCS, fire mission planning consisted
        of a group of sailors manually calculating incoming calls for fires using a
        manual plotting method. The Navy envisioned that NFCS would greatly reduce
        the calculation time and manpower required for fire mission planning and
        coordination. The ORD for the NFCS neither required a comparison between
        the manual plotting method and the NFCS nor stated that the NFCS process be
        as good as or better than the manual plotting method. However, the Navy plans
        to use a ship that will conduct fire missions without the NFCS and then to test
        with the NFCS. Subjective evaluation for comparison of the two methods will
        be reviewed, but no formal comparison was planned. However, the TEMP did
        not discuss the Navy’s conduct of the subjective evaluation between the manual
        and the automated NFCS processes, which includes procedures for tactics and
        techniques, to determine whether NFCS would be more efficient and effective
        than the manual process. Further, for an adequate operational evaluation, test
        scenarios must be based, at a minimum, on standard fire mission procedures to
        evaluate the stress and other human factors that operators may endure, and
        should include procedures that specify how the NFCS operators will interact and
        how they will be supervised during the fire missions.19

Effect of Operational Testing Without Current Operational
  Requirements and Test Plan
        Without an updated ORD and TEMP that accurately show user and test and
        evaluation requirements for Phase I Plus and Phase II, the Navy cannot plan for
        the test resources that will be required to test NFCS, thus impacting the NFCS
        schedule and cost. Also, the Navy cannot ensure that the NFCS meets the
        minimum required system capabilities and characteristics that are considered
        essential for successful mission accomplishment. By updating the ORD and the
        TEMP, the Navy developmental and operational testers will be able to test the
        NFCS to:

                 •   determine whether NFCS meets the user’s needs, including
                     interoperability key performance parameters derived from
                     information exchange requirements;

                 •   identify schedule and resource constraints that will affect the program
                     schedule and test management strategy and structure;

                 •   identify the resources required to evaluate critical operational issues,
                     objectives, and thresholds documented in the updated ORD; and


19
   The Navy was developing a tactical memorandum to define fire mission procedures for tactics and
techniques.

                                                  23
           •   provide operational test data to the milestone decision authority to
               assess the readiness of each NFCS phase to enter full-rate
               production.

    If the Navy updates and approves the ORD and the TEMP, it can lessen the
    NFCS risk of increasing testing cost and delaying schedule and improve the test
    and evaluation process to fully test and evaluate all program requirements,
    including key performance parameters, as discussed in the C4I Support Plan. In
    August 2001, the NFCS Program Office stated that it would not conduct formal
    operational evaluation of NFCS without a revised ORD and an updated TEMP
    and test plan. Further, the NFCS Program Office stated that it was coordinating
    testing of the NFCS with the Commander, Operational Test and Evaluation
    Force.

Management Comments on the Finding and Audit Responses
    Summaries of management comments on the finding and our responses are in
    Appendix D.

Recommendations, Management Comments, and Audit
  Responses
    C.1. We recommend that the Deputy Chief of Naval Operations
    (Resources, Warfare Requirements, and Assessments) update the
    operational requirements document for the Naval Fires Control System to
    include Phase I Plus, the functionality of Phase II, and the interface fire
    support functionality requirements of the USS Coronado (AGF-11).

    Management Comments. The Deputy Assistant Secretary of the Navy, Ship
    Programs, Office of the Assistant Secretary of Navy (Research, Development,
    and Acquisition), concurred, stating that the Surface Warfare Division, Office
    of the Deputy Chief of Naval Operations (Naval Warfare), is updating the ORD
    for the NFCS to include the development of NFCS Phase II requirements,
    evolving Marine Corps doctrine, and improved Naval surface-fire support
    capabilities. However, the Deputy stated that further definition of NFCS
    Phase I Plus requirements may not be required because of potential changes in
    the Land Attack Missile program. The Deputy also stated that the revised
    requirements will include feedback from Fleet battle experiments aboard the
    USS Coronado and recommendations from Fleet operators. For the complete
    text of the Deputy’s comments, see the Management Comments section of this
    report.

    C.2. We recommend that the Program Manager, Naval Surface Fire
    Support (PMS 529), update the test and evaluation master plan for the
    Naval Fires Control System to include the updated operational requirements
    for Phase I Plus and requirements for sufficient testing resources and fire
    mission planning.



                                        24
Management Comments. The Deputy Assistant Secretary of the Navy, Ship
Programs, concurred, stating that the TEMP for the NFCS will be updated to
conform with final updates to the ORD for the NFCS. Further, the Deputy
stated that the TEMP and ORD updates will be done in parallel.

C.3. We recommend that the Assistant Secretary of Defense (Command,
Control, Communications, and Intelligence) review the Command, Control,
Communications, Computers, and Intelligence Support Plan for the Naval
Fires Control System to assess the interoperability and information
exchange requirement issues for all phases of the program.

Acting Director, Program Analysis and Integration, Office of the Assistant
Secretary of Defense (Command, Control, Communications, and
Intelligence), Comments. The Acting Director concurred, stating that the C4I
Support Plan review process requires that an ORD, including interoperability
key performance parameters, be completed and submitted to the Director for
Command, Control, Communications, and Computers (J-6), Office of the Joint
Staff, for review before submission of the C4I Support Plan for review.
Further, the Acting Director stated that the NFCS Program Office estimates that
the C4I Support Plan will be ready for review in May 2002. The Acting
Director also stated that the complete C4I Support Plan review process would
take approximately 6 months and that his office will provide us with the results
of the review. For the complete text of the Acting Director’s comments, see the
Management Comments section of this report.

Chief, Command, Control, Communications, and Computers Requirements
and Assessment Division, Office of the Director for Command, Control,
Communications, and Computers (J-6), Comments. Although not required
to comment, the Chief agreed with the recommendation and stated that J-6
should be included in the assessment of the C4I Support Plan for the NFCS, in
accordance with Chairman of the Joint Chiefs of Staff Instruction 6212.01B.
For the complete text of the Chief’s comments, see the Management Comments
section of this report.

C.4. We recommend that, upon the receipt of the updated operational
requirements document for the Naval Fires Control System, the Director
for Command, Control, Communications, and Computers (J-6) review
and certify, as appropriate, the document for interoperability and
coordinate it in accordance with Chairman of the Joint Chiefs of Staff
Instruction 6212.01B, “Interoperability and Supportability of National
Security Systems, and Information Technology Systems,” May 8, 2000.

Management Comments. The Chief, Command, Control, Communications,
and Computers Requirements and Assessment Division, concurred, stating that
the correct title of Chairman of the Joint Chiefs of Staff Instruction 6212.01B is
“Interoperability and Supportability of National Security Systems, and
Information Technology Systems.”

Audit Response. We revised the report accordingly.




                                    25
Appendix A. Audit Process

Scope and Methodology
    We reviewed documentation dated from May 1992 through August 2001. We
    interviewed and obtained documentation from the staffs of the Office of the Joint
    Chiefs of Staff; the Office of the Chief of Naval Operations; the Commander,
    Third Fleet; the Commander, Naval Sea Systems Command; the Commander,
    Marine Corps Combat Development Command; the Commander, Space and
    Naval Warfare Systems Command; the Director, Defense Information Systems
    Agency; the Commander, Joint Interoperability and Engineering Organization;
    the Program Executive Officer for Surface Strike; the Program Manager, Naval
    Surface Fire Support (PMS 529); the Project Manager, Army Field Artillery
    Tactical Data Systems; and the Project Manager, Naval Fires Control System.
    Because the NFCS Program was in the engineering and manufacturing
    development phase, the audit concentrated on whether management was
    cost-effectively readying the system for the production phase of the acquisition
    process. Consequently, we focused our review on the areas of program
    definition, structure, design, assessments and decision reviews, and periodic
    reporting.

    Audit Type, Dates, and Standards. We performed this program audit from
    January through September 2001 in accordance with generally accepted
    government auditing standards.

    Use of Computer-Processed Data. We did not rely on computer-processed
    data to perform this audit.

    Use of Technical Assistance. A computer engineer from the Technical
    Assessment Division, Office of the Assistant Inspector General for Auditing,
    DoD, assisted the auditors in evaluating software requirements for the NFCS.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD; General Dynamics Information Systems, Arlington,
    Virginia; and Raytheon Systems Company, Fort Wayne, Indiana. Further
    details are available on request.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the DoD Weapon Systems Acquisition high-risk area.

Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26,
    1996, and DoD Instruction 5010.40, “Management Control (MC) Program
    Procedures,” August 28, 1996, require DoD organizations to implement a


                                       26
    comprehensive system of management controls that provides reasonable
    assurance that programs are operating as intended and to evaluate the adequacy
    of the controls.

    Scope of the Review of the Management Control Program. In accordance
    with DoD Regulation 5000.2-R, acquisition managers are to use program cost,
    schedule, and performance parameters as control objectives to implement the
    requirements of DoD Directive 5010.38. Accordingly, we limited our review to
    management controls directly related to program definition, structure, design,
    assessments and decision reviews, and periodic reporting.

    Adequacy of Management Controls. The management controls over the
    acquisition of the NFCS were adequate in that we did not identify any material
    management control weakness.

Prior Coverage
    During the last 5 years, the General Accounting Agency issued two reports
    addressing the NFCS.

    Report No. GAO-01-493, “Navy Acquisitions: Improved Littoral War-Fighting
    Capabilities Needed,” May 18, 2001

    Report No. NSIAD-99-91, “Defense Acquisitions: Naval Surface Fire Support
    Program Plans and Costs,” June 11, 1999




                                       27
Appendix B. Definitions of Technical Terms
   Acquisition Category. An acquisition category is an attribute of an acquisition
   program that determines the program’s level of review, decision authority, and
   applicable procedures. The acquisition categories consist of I, major Defense
   acquisition programs; IA, major automated information systems; II, major
   systems; and III, all other acquisition programs. Acquisition Category I
   programs have two sub-categories: ID and IC. Acquisition IA programs also
   have two sub-categories: IAM and IAC.

   Acquisition Plan. An acquisition plan is a formal written document showing
   the specific actions necessary to implement the approach established in the
   approved acquisition strategy.

   Acquisition Strategy. An acquisition strategy is a business and technical
   management approach designed to achieve program objectives within the
   resource constraints imposed. It is the framework for planning, directing,
   contracting for, and managing a program. It provides a master schedule for
   research, development, test, production, fielding, modification, postproduction
   management, and other activities essential for program success. The acquisition
   strategy is the basis for formulating functional plans and strategies.

   Baseline. A baseline is a defined quantity or quality used as starting point for
   subsequent efforts and progress measurement that can be a technical, cost, or
   schedule baseline.

   Capstone Requirements Document. A capstone requirements document is a
   document that contains capabilities-based requirements to develop individual
   operational requirements documents by providing a common framework and
   operational concept to guide their development. The capstone requirements
   document is also an oversight tool for overarching requirements for a
   system-of-systems or family-of-systems.

   Capstone Test and Evaluation Master Plan. A capstone test and evaluation
   master plan is a test and evaluation master plan that addresses the testing and
   evaluation of a Defense system consisting of a collection of individual systems
   which function collectively to achieve the objectives of the Defense system.
   Individual system-unique content requirements are addressed in an annex to the
   basic capstone test and evaluation master plan.

   Command, Control, Communications, Computers, and Intelligence (C4I)
   Support Plan. A C4I support plan describes system dependencies and interfaces
   in sufficient detail to enable planning for interoperability key performance
   parameters derived from information exchange requirements.

   Command, Control, Communications, Computers, and Intelligence
   Surveillance and Reconnaissance (C4ISR) Architecture Framework. The
   C4ISR architecture framework provides rules, guidance and product descriptions



                                        28
for developing and presenting different architectural views of a given system to
ensure a common denominator for understanding, comparing and integrating
architectures across DoD.

Critical Operational Issue. A critical operational issue is a key operational
effectiveness issue or operational suitability issue, or both, that must be
examined in the operational test and evaluation to determine the system’s
capability to perform its mission.

Earned Value Management. Earned value management is a tool that allows
both government and contractor program managers to have visibility into
technical, cost, and schedule progress on their contracts. The implementation of
an earned value management system is a recognized function of program
management. It ensures that cost, schedule and technical aspects of the contract
are truly integrated.

Fire Control System. A Fire Control System is the group of interrelated fire
control equipment and instruments designed for use with a weapon or group of
weapons that control all operations in connection with the application of fire on
a target.

Fire Support. Fire support is weapon fires that directly support land,
maritime, amphibious, and special operation forces to engage enemy forces,
combat formations, and facilities in pursuit of tactical and operational
objectives.

Fire Support Coordination Center. The Fire Support Coordination Center is
a single location in which are centralized communications facilities and
personnel incident to the coordination of all forms of fire support.

Follow-On Operational Test and Evaluation. Follow-on operational test and
evaluation is test and evaluation that may be necessary after the full-rate
production decision to refine the estimates made during operational test and
evaluation to evaluate changes and to reevaluate the system to ensure that it
continues to meet operational needs and retains its effectiveness in a new
environment or against a new threat.

Information Exchange Requirements. Information exchange requirements
characterize the information exchanges to be performed by a proposed system
and identify who exchanges what information with whom as well as why the
information is necessary and how the users will employ that information.

Interoperability. Interoperability is the ability of systems, units, or forces to
provide services to or accept services from other systems, units, or forces and to
use the services so exchanged to operate effectively together.

Joint Technical Architecture. Joint technical architecture is a common set of
mandatory information technology standards, which are primarily interface
standards, and guidelines to be used by all emerging systems and systems
upgrades including Advanced Concept Technology Demonstrations. Joint



                                     29
technical architecture can be used to establish a system’s technical architecture,
and is applicable to all C4I and automated information systems and the interfaces of
other key assets, such as weapons systems, and sensors, with C4I systems.

Key Performance Parameters. Key performance parameters are capabilities
or characteristics so significant that failure to meet the threshold or minimum
acceptable value can be cause for the concept or system selected to be
reevaluated or the program to be reassessed or terminated.

Life-Cycle Cost. Life-cycle cost is the total cost to the government of
acquisition and ownership of that system over its useful life. In includes the
cost of development, acquisition, operating, support, and, where applicable,
disposal.

Measure of Effectiveness. A measure of effectiveness is the quantitative
expression defined to measure operational capabilities in terms of engagement or
battle outcomes.

Mission Needs Statement. The mission needs statement is a formatted
non-system specific statement containing operational capability needs and
written in broad operational terms and describes required operational capabilities
and constraints to be studied.

Operating and Support Costs. Operating and support costs consist of those
resources required to operate and support a system, subsystem, or a major
component during its useful life in the operational inventory.

Operational Requirements Document. The ORD shows the users objectives
and minimum acceptable requirements for operational performance of a
proposed concept or system.

Pre-Planned Product Improvement. A pre-planned product improvement
includes improvements planned for ongoing systems that go beyond the current
performance envelope to achieve a needed operational capability.

Program. A program is an acquisition effort funded by research, development,
test and evaluation or procurement appropriations, or both, with the express
objective of providing a new or improved capability in response to a stated
mission need or deficiency.

Software Requirements Specification. A software requirements specification
documents the essential requirements, including functions, performance, design
constraints and attributes, of a given software item.

Software Reuse. Software reuse is a the process of implementing or updating
software systems using existing software assets.

Supporting Arms Coordination Center. A Supporting Arms Coordination
Center (the Center) is a single location on board an amphibious command ship




                                    30
in which all communication facilities to coordinate fire support of the artillery,
air, and Naval gunfire are centralized. The Center is the Naval counterpart to
the fire support coordination center utilized by the landing force.

Test and Evaluation Master Plan. The TEMP documents the overall structure
and objectives of the test and evaluation program. It provides a framework
within which to generate detailed test and evaluation plans and it documents
schedule and resource implications associated with the test and evaluation
program. The TEMP identifies the necessary developmental test and
evaluation, operational test and evaluation, and live fire test and evaluation
activities. Further, the TEMP relates program schedule, test management
strategy and structure, and required resources to critical operational issues;
critical technical parameters; objectives and thresholds documented in the ORD;
evaluation criteria; and milestone decision points.




                                     31
Appendix C. Navy Analysis of Alternatives
            Initiation, Analysis, and Approval
            Process
   The following is a flow chart of the analysis of alternatives process as discussed
   in the Secretary of the Navy Instruction 5000.2B, “Implementation of
   Mandatory Procedures for Major and Non-Major Defense Acquisition Programs
   and Major and Non-Major Information Technology Acquisition Programs,”
   December 6, 1996.




   See next page for definitions of the acronyms used in the flow chart.




                                       32
Acronyms

ABM                  Acquisition and Business Management
ACAT                 Acquisition Category
AOA                  Analysis of Alternatives
ASN (FM&C)           Assistant Secretary of the Navy (Financial Management and
                         Comptroller)
ASN (I&E)            Assistant Secretary of the Navy (Installations and Environment)
ASN (M&RA)           Assistant Secretary of the Navy (Manpower and Reserve Affairs)
ASN (RD&A)           Assistant Secretary of the Navy (Research, Development and
                         Acquisition)
CNA                  Center for Naval Analyses
COMOPTEVFOR          Commander, Operational Test and Evaluation Force
DASN                 Deputy Assistant Secretary of the Navy
DON CIO              Department of the Navy Chef Information Officer (US Navy)
DRPM                 Directing Reporting Program Manager
FFRDC/SYSCOM/        Federally Funded Research and Development Center/Systems
   LABS/Contractor       Command/Labs/Contractor
IPT                  Integrated Product Team
MDA                  Milestone Decision Authority
MOEs                 Measures of Effectiveness
N091                 Director of Navy Test and Evaluation and Technology Requirements
N1                   Deputy Chief of Naval Operations (Manpower and Personnel)
   N4                Deputy Chief of Naval Operations (Naval Logistics)
   N6                Director, Space Information Warfare Command and Control
   N7                Deputy Chief of Naval Operations (Naval Warfare)
N2                   Director of Naval Intelligence
N8                   Deputy Chief of Naval Operations
   N80               Director Programming Division
   N81               Assessment Division
   N82               Director of Fiscal Management Division
N8/ASN(RD&A)         Deputy Chief of Naval Operations/Assistant Secretary of the Navy
                         (Research, Development and Acquisition)
N8/MDA               Deputy Chief of Naval Operations/Milestone Decision Authority
N810/DASN            Head Requirements and Acquisition Branch/ Deputy Assistant
                         Secretary of the Navy
NCCA                 Naval Center for Cost Analysis (US Navy)
OPA                  Office of Public Affairs
OPNAV                Office of the Chief of Naval Operations
PEO/SYSCOM/          Program Executive Office/Systems Command/ Direct Reporting
  DRPM                   Program Manager
PM                   Program Manager
POA&M                Plan of Action and Milestones
REP                  Representative
SYSCOM               Systems Command
USMC                 United States Marine Corps




                                    33
Appendix D. Audit Responses to Navy
            Comments Concerning the Report
    Our detailed responses to the comments from the Deputy Assistant Secretary of
    the Navy, Ship Programs, Office of the Assistant Secretary of Navy (Research,
    Development, and Acquisition), on statements in the draft report follow. The
    complete text of those comments is in the Management Comments section of
    this report.

Management Comments on Finding A and Audit Response
    Management Comments Addressing Specific Statements in the Finding.
    The Deputy commented on the NFCS Program Office efforts to develop and
    acquire NFCS Phase II, the ability of AFATDS to meet the ORD requirements,
    the introduction of multiple programming languages, the existing and planned
    system functionality of AFATDS on amphibious ships, and the NFCS Phase II
    effort for cruisers and destroyers.

            Efforts to Develop and Acquire NFCS Phase II. The Deputy stated
    that the report inaccurately states that NFCS Phase II requirements duplicate
    AFATDS functionality. Further, the Deputy stated that AFATDS has
    significant supporting command and control functionality for future NFCS
    Phase II efforts, which can and should be considered for reuse in NFCS
    Phase II.

            Audit Response. The AoA, conducted by the Center for Naval
    Analyses, concluded that AFATDS met 100 percent of the ORD requirements
    for Phase II. By developing and acquiring the NFCS Phase II that duplicates the
    existing and planned functionality of the AFATDS, the Navy is wasting funds.

             ORD Requirements. The Deputy recommended that the bullet in the
    software reuse paragraph of the report, which states that “AFATDS fully or
    mostly met 100 percent of the ORD requirements, as discussed in the March 25,
    1999, AoA,” should be revised to read, “AFATDS fully or mostly supports
    100% [percent] of the NFCS ORD Phase II requirements with the exception of
    critical gun and missile fire control interfaces.” The Deputy stated that
    Footnote 13 in the report makes his proposed revision; however, he believes
    that the footnote should be associated with the software reuse paragraph in the
    report.

           Audit Response. The bullet is supported by the conclusions of the AoA
    conducted by the Center for Naval Analyses. Further, the AoA did not address
    the exception noted by the Deputy. We revised the report so that the footnote is
    associated with the software reuse paragraph.

            Multiple Programming Languages. The Deputy recommended that the
    report statement concerning the introduction of multiple programming languages
    associated with the interface of NFCS with AFATDS and other command and

                                       34
    control systems be deleted because the statement appears to confuse mixed
    programming languages within a given system with multiple programming
    languages among different systems.

            Audit Response. If two or more systems must interface with each
    other, the associated programming languages must also interface for those
    systems to be interoperable and to operate effectively together.

            System Functionality. The Deputy stated that Navy fire control
    operators will operate NFCS Phase II on cruisers and destroyers, and that the
    Marines, the sailors, or both, will operate a fires coordination element on
    amphibious ships. Further, the Deputy stated that system operator
    determination, system complexity, current technology, ease of operation, and
    required training for system development must be addressed when considering
    the development strategy for NFCS Phase II. The Deputy also stated that
    ensuring that efforts to develop and acquire the NFCS Phase II did not duplicate
    the existing and planned functionality of the AFATDS on amphibious ships was
    not a simple matter of system functionality.

            Audit Response. Whether NFCS or AFATDS is used to meet the
    Phase II functionality requirements, the Navy must address system operator
    determination, system complexity, current technology, ease of operation, and
    required training for system development when considering the development
    strategy for either system.

            NFCS Phase II Effort for Cruisers and Destroyers. The Deputy
    recommended that the report paragraph addressing a strategy for the NFCS
    Phase II on cruisers and destroyers add the following statement, “The NFCS
    Phase II effort for CRUDES [cruisers and destroyers] will consider software
    reuse of AFATDS functionality built on the NFCS Phase I product to meet
    NFCS Phase II requirements.” The Deputy stated that the Amphibious Navy
    may consider reusing AFATDS for the fire coordination element capability
    requirement without the need for gun and missile weapon control interfaces
    essential to the cruisers and destroyers NFCS Phase I and Phase I Plus
    development effort. The Deputy concluded that rebuilding the gun and missile
    weapons control interfaces to function with AFATDS for the cruisers and
    destroyers’ NFCS Phase II effort would be impractical.

            Audit Response. We revised the report to include the additional
    statement. The report is not suggesting that rebuilding the gun and missile
    weapons control interfaces to function with AFATDS for the cruisers and
    destroyers; however, NFCS should be interoperable with AFATDS on the
    cruisers and destroyers for fire-support command, control, and communications.

Management Comments on Finding B and Audit Response
    Management Comments Addressing Specific Statements in the Finding.
    The Deputy commented that the EVMS requirements are based on contract
    value. Further, the Deputy stated that the NFCS contract employs EVMS;
    however, the size of the contract does not warrant expenditures required to

                                       35
    maintain a full-up certified EVMS. The Deputy also stated that the EVMS
    reporting for NFCS is tailored and is reported monthly, and that contractor cost
    performance is satisfactory.

    Audit Response. If EVMS guidelines are applied to a contract, DoD
    Regulation 5000.2-R requires that, unless waived by the milestone decision
    authority, the program manager will require that contractor’s management
    information systems used in planning and controlling contract performance meet
    the EVMS guidelines in the American National Standards Institute (ANSI)/EIA
    Standard for Earned Value Management Systems (ANSI/EIA-748-98), approved
    May 19, 1998. Without a certified EVMS, the Navy cannot ensure that the
    contractor’s EVMS is producing data that accurately indicate work progress;
    properly relate cost, schedule, and technical accomplishments; and are valid,
    timely, and auditable.

Management Comments on Finding C and Audit Response
    Management Comments Addressing Specific Statements in the Finding.
    The Deputy commented on ORDs and succeeding TEMPs for the NFCS; the
    common fire-support ORD; the Director for Command, Control,
    Communications, and Computers (J-6) certification of the ORD; the use of the
    Land Attack Warfare System (LAWS); conducting NFCS operational tests, and
    the lack of a requirement to conduct a comparative test between manual versus
    automated NFCS processes.

           ORDs and Succeeding TEMPs. The Deputy stated that the Navy
    updates ORDs and succeeding TEMPs before program acquisition milestones.
    Further, the Deputy stated that the addition of the NFCS Phase I Plus will be
    addressed in a revised ORD and TEMP in time for a follow-on operational test
    and evaluation for NFCS Phase I Plus in February 2004.

            Common Fire-Support ORD. The Deputy stated that the common fire
    support ORD is the ORD for the NFCS and that subsequent updates for fire
    support command and control should be included in future ORD revisions for
    the NFCS. Further, the Deputy stated that the USS Coronado is a sea-based
    test bed that the Navy has used for concept exploration and risk reduction for
    the Commander, Third Fleet. The Deputy also stated that the Program
    Manager, Naval Surface Fire Support (PMS 529), has actively participated in
    Fleet battle experiments since 1997.

           J-6 Certification. The Deputy stated that J-6 reviewed the original
    ORD for the NFCS and that the Navy will notify J-6 when the revised ORD is
    ready for certification review.

            LAWS. The Deputy recommended that the report paragraph not address
    LAWS as part of the interface fire support functionality requirements of the
    USS Coronado when the Navy updates the ORD for NFCS. The Deputy stated
    that the Program Manager, Naval Surface Fire Support (PMS 529), uses LAWS
    as a prototype for Navy Fleet battle experimentation and that NFCS is the


                                       36
documented, configuration-managed program of record sponsored by the
Surface Warfare Division, Office of the Deputy Chief of Naval Operations
(Naval Warfare).

        Audit Response. The NFCS fielding plan does not include NFCS on
command ships, such as the USS Coronado or aircraft carriers, for fire support.
For joint fire support planning, the USS Coronado uses the Global Command
and Control System-Maritime, which interfaces with LAWS, to communicate
fire mission planning to destroyers and cruisers for shore bombardment even
though it has AFATDS. If the USS Coronado continues to use LAWS, rather
than AFATDS, as part of its fire mission planning, the Navy needs to include
LAWS in its update to the ORD for NFCS to ensure that the Global Command
and Control System-Maritime, LAWS, AFATDS, and NFCS effectively
interface to provide expedient joint fire support planning to the warfighter.
       NFCS Operational Tests. The Deputy stated that the Navy will
probably conduct NFCS operational tests at San Clemente using West Coast
ships and that the NFCS test community is participating in scheduling
conferences.

        Comparative Testing. The Deputy stated that a requirement does not
exist to conduct a comparative test between the manual and the automated NFCS
processes. Further, the Deputy stated that the Commander, Operational Test
and Evaluation Force, would decide whether to require such a test to validate
NFCS efficiency.

       Audit Response. The ORD for the NFCS neither required a comparison
between the manual plotting method and the NFCS nor stated that the NFCS
process be as good as or better than the manual plotting method. By not
formally comparing the two processes, the Navy cannot ensure that all required
functions of the manual plotting method have been incorporated into the NFCS
process to support the warfighter.




                                  37
Appendix E. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Command, Control, Communications, and Intelligence)
Director, Operational Test and Evaluation

Joint Staff
Director, Joint Staff
  Director for Command, Control, Communications, and Computers

Department of the Army
Assistant Secretary of the Army (Acquisition, Logistics, and Technology)
  Program Executive Officer, Command, Control, and Communications Systems
      Project Manager, Field Artillery Tactical Data Systems
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Assistant Secretary of the Navy (Research, Development, and Acquisition)
  Program Executive Officer for Surface Strike
      Program Manager, Naval Surface Fire Support (PMS 529)
         Project Manager, Naval Fires Control System
Naval Inspector General
Commander, Naval Sea Systems Command
  Commander, Naval Surface Warfare Center, Dahlgren
  Commander, Naval Surface Warfare Center, Port Hueneme
Deputy Chief of Naval Operations (Naval Warfare)
Deputy Chief of Naval Operations (Resources, Warfare Requirements, and
  Assessments)
Auditor General, Department of the Navy
Commander, Marine Corps Combat Development Command
Commander, Navy Warfare Development Command
Commander, Space and Naval Warfare Systems Command
Commander, Operational Test and Evaluation Force
Director, Naval Center for Cost Analysis




                                         38
Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Unified Command
Commander In Chief, Pacific
  Commander In Chief, Pacific Fleet
    Commander, Third Fleet

Other Defense Organizations
Director, Defense Contract Management Agency
Director, Defense Information Systems Agency
   Commander, Joint Interoperability and Engineering Organization

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         39
___________________________________________________________________



Assistant Secretary of Defense (Command,
Control, Communications, and Intelligence)
Comments




                             41
___________________________________________________________________



Joint Staff Comments




                             42
___________________________________________________________________


Department of the Navy Comments




                             43
___________________________________________________________________




                             44
___________________________________________________________________




                             45
___________________________________________________________________




                             46
               ___________________________________________________________________




Final Report
 Reference




Page 6,
Revised




Page 7




Page 10




Page 11,
Revised




                                            47
___________________________________________________________________




                                                                      Final Report
                                                                       Reference




                                                                      Page 11,
                                                                      Revised




                                                                      Page 14




                                                                      Page 18




                                                                      Page 21




                                                                      Page 21




                             48
               ___________________________________________________________________




Final Report
 Reference




Page 22




Page 22




Page 23




                                            49
Audit Team Members
   The Acquisition Management Directorate, Office of the Assistant Inspector
   General for Auditing, DoD, prepared this report. Personnel of the Office of the
   Inspector General, DoD, who contributed to the report are listed below.

   Mary L. Ugone
   John E. Meling
   Jack D. Snider
   Susan J. Lippolis
   Mark E. Stephens
   Frank Downey
   Kelly R. Veith
   Julie A. Wells
   Dan B. Convis
   Jacqueline N. Pugh
